                                   News From
                         The Office of Inspector General
                      Corporation For National And Community Service




Former Kentucky Program Director Sentenced For Credit Card Fraud

A former AmeriCorps program director from Kentucky who misused her
government issued credit card for personal gain has pled guilty to theft as the
result of an investigation by the Office of Inspector General (OIG), Corporation
for National and Community Service (Corporation). Brande Henson, former
director of Kentucky Reads program in the Simpson County School District,
Frankfort, KY, was sentenced on March 1, 2004, to three years probation
by a Simpson County Circuit Court judge. In June 2004, Corporation officials
barred Henson from receiving any Federal contracts or grants, including student
loans, for one year. Acting on a tip from a Kentucky Reads staff member, OIG
investigators found that Henson had used her AmeriCorps credit card to make
$2,073.76 in transactions to cover personal expenses. Use of AmeriCorps credit
cards is strictly limited to program expenditures. Henson, who was terminated by
school officials, has made full restitution to the Corporation. The one-year ban on
Henson’s participation in Federal contracts and grants, known as a debarment,
was recommended to the Corporation by the OIG.
